   October 14, 2003




Financial Management

Allegations Concerning Controls Over
DoD Transit Subsidies Within the
National Capital Region
(D-2004-009)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DLA                   Defense Logistics Agency
DOT                   Department of Transportation
WHS                   Washington Headquarters Services
NCR                   National Capital Region
          Office of the Inspector General of the Department of Defense
Report No. D-2004-009                                                  October 14, 2003
   (Project No. D2003LH-0096)

                Allegations Concerning Controls Over DoD
            Transit Subsidies Within the National Capital Region

                                Executive Summary

Who Should Read This Report and Why? Civil service and uniformed officers with
oversight responsibility and personnel working within the transit subsidy program should
read this report to obtain information about controls regarding transit subsidies.

Background. This audit was performed in response to allegations made to the Defense
Hotline concerning controls over the DoD Transportation Fringe Benefit Program within
the National Capital Region. Executive Order 13150, signed April 21, 2000, directed
Federal agencies to establish by October 1, 2000, transportation fringe benefit programs
in order to reduce Federal employees’ contribution to traffic congestion and air pollution
and to expand their commuting alternatives. The program provides financial incentives
to employees to encourage commuting by mass transportation. Washington Headquarters
Services has responsibility for administering the Transportation Fringe Benefit Program
for DoD within the National Capital Region. Washington Headquarters Services
administers the Transportation Fringe Benefit Program with assistance from the
Department of Transportation. Washington Headquarters Services estimated that within
the National Capital Region, DoD transit subsidy expenditures were about $23.6 million
in FY 2002. The following chart shows FY 2002 DoD transit subsidy expenditures by
component.

                            FY 2002 DoD Transit Subsidy
                   Expenditures within the National Capital Region
                     DoD Component                Amount
                     Army                     $ 8,418,463.70
                     Navy                       5,537,127.89
                     Air Force                  4,623,530.76
                     DLA                          160,426.72
                      Other DoD                   4,900,038.22
                       Total                    $23,639,587.29

The complainant alleged that the lack of DoD controls over the transit subsidy program
within the National Capital Region resulted in ineligible personnel receiving transit
subsidies, personnel receiving both subsidized parking and transit subsidies, no
verification of an applicant’s employment, and that DoD employees could be selling or
giving away their transit subsidies.

Results. Controls over the transit subsidies program within the Army, the Navy, the
Air Force, and the Defense Logistics Agency needed improvement. Specifically, the
Army and the Air Force offices with transit subsidy responsibilities were not performing
reconciliations of Department of Transportation billing information. The Navy and
Defense Logistics Agency were performing reconciliations of Department of
Transportation billing information but lacked written policies and procedures. Further,
the Defense Logistics Agency was not ensuring that transit subsidy applicants
relinquished subsidized parking permits. As a result, there was an increased risk that
erroneous transit subsidy charges would not be detected and that ineligible personnel
could obtain transit subsidies. The development of policies and procedures requiring the
reconciliation of Department of Transportation billings will ensure that reconciliations
are performed. In addition, policies and procedures requiring Defense Logistics Agency
transit officials to check transit applications against the Defense Logistics Agency
parking permit roster will ensure that employees are not also receiving subsidized
parking. See the Finding section of the report for the detailed recommendations.

The complainant raised four issues addressing controls over the DoD Transportation
Fringe Benefit Program within the National Capital Region. Our review substantiated
the allegations that there was no verification of an applicant’s employment and that DoD
employees could be selling or giving away their transit subsidies. The Department of
Transportation did not verify transit subsidy applicant’s employers; however, employees
were required to show valid DoD identification and provide the last four digits of their
social security number in order to obtain benefits. Although there is some risk that
individuals could sell, give away, or transfer their transit subsidy, we believe that the cost
of implementing controls to prevent this type of misuse would be prohibitive.

The other two allegations, which were partially substantiated, were that ineligible
employees were receiving transit subsidies, including a contractor, and that there were no
controls to ensure that personnel do not receive both subsidized parking and transit
subsidies. Although the complainant’s reconciliations identified personnel that did not
belong to that Agency, the complainant could not provide any documentation to show
that the identified personnel were contractors. Defense Logistics Agency headquarters
transit applications were not being checked against the Defense Logistics Agency
headquarters parking permit roster. The Army, Navy, and Air Force headquarters transit
subsidy applications are checked against a central parking office database to determine if
a subsidized parking permit has been issued. Appendix B provides a detailed discussion
of each allegation.

Management Comments. The Army, Navy, Air Force and Defense Logistics Agency
concurred with the recommendations; therefore, no further comments are required. See
the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                              ii
Table of Contents

Executive Summary                             i

Background                                   1

Objectives                                   2

Finding
     Controls Over DoD Transit Subsidies     3

Appendixes
     A. Scope and Methodology                 9
         Management Control Program Review    9
     B. Review of Allegations                11
     C. Report Distribution                  13

Management Comments
     Department of the Army                  15
     Department of the Navy                  17
     Department of the Air Force             18
     Defense Logistics Agency                19
     Washington Headquarters Services        23
Background
           Executive Order 13150, signed by President Clinton on April 21, 2000, required
           Federal agencies to establish transportation fringe benefit programs by
           October 1, 2000. The purpose of the programs is to reduce Federal employees’
           contribution to traffic congestion and air pollution and to expand their commuting
           alternatives. The programs provide financial incentives to employees to
           encourage commuting by mass transportation.

           Defense Hotline Allegations. We performed the audit in response to allegations
           made to the Defense Hotline concerning administration and controls over the
           DoD Transportation Fringe Benefit Program within the National Capital
           Region (NCR). * Our review was limited to the Army, the Navy, the Air Force,
           and the Defense Logistic Agency (DLA) implementation of the program within
           the NCR. The complainant alleged that the lack of DoD controls over the transit
           subsidy program within the NCR resulted in ineligible personnel receiving transit
           subsidies and personnel receiving both subsidized parking and transit subsidies.
           The complainant also stated that the applicant’s employment was not verified, and
           that some DoD employees could be selling or giving away their transit subsidies.
           See Appendix B for a discussion of the specific allegations raised by the
           complainant and the results of our review.

           Transportation Fringe Benefits. Under the Transportation Fringe Benefit
           Program, DoD components are required to provide subsidies for personnel who
           use mass transportation or qualified vanpools in an amount equal to the
           individual’s personal commuting costs but not to exceed the maximum allowed
           by the Internal Revenue Service Code, which was $100 per month as of July
           2003. Both DoD civilian and military personnel—including nonappropriated
           fund employees—are eligible to participate in the program. Washington
           Headquarters Services (WHS) estimated that within the NCR, DoD transit
           subsidy expenditures were about $23.6 million in FY 2002. As of May 21, 2003,
           the Department of Transportation (DOT) stated there were 29,134 DoD
           employees participating in the program within the NCR.
           Program Administration. Within the NCR, WHS is responsible for
           administering the program for DoD components. To assist in administering the
           program, WHS signed a memorandum of agreement with DOT on July 6, 2000.
           WHS developed, with advice from DOT, necessary program application and
           certification forms and established criteria for DOT to determine DoD employee
           eligibility for participation in the program. DOT responsibilities include
           maintaining and safeguarding fare media; processing enrollment applications;
           providing monthly statements, with a detailed report on employee participation in
           the program; cross-referencing program applicants against WHS parking
           databases to verify eligibility; maintaining a database that identifies all


*
    The National Capital Region is defined as the District of Columbia; Montgomery, Prince George’s, and
    Frederick Counties in Maryland; Arlington, Fairfax, Loudoun, and Prince William Counties in Virginia;
    and all cities now or hereafter existing in Maryland or Virginia within the geographic area bounded by
    the outer boundaries of the combined area of said counties.



                                                      1
    participants in the program; distributing fare media on a quarterly basis to
    qualified NCR DoD employees; and providing customer service support.


Objectives
    The primary objective was to review the allegation to the Defense Hotline
    regarding controls over DoD transit subsidies and to determine if the allegations
    had merit. See Appendix A for a discussion of the scope and methodology and
    our review of the management control program.




                                         2
           Controls Over DoD Transit Subsidies
           Controls over the Transportation Fringe Benefit Program within the Army,
           the Navy, the Air Force, and DLA needed improvement. Specifically,
           Army and Air Force offices with transit subsidy responsibilities were not
           performing reconciliations of DOT quarterly transit subsidy billing
           statements and DLA was not ensuring that transit subsidy applicants
           relinquish subsidized parking permits. Those conditions occurred because
           the Military Departments and DLA did not develop policies and
           procedures regarding transit subsidy reconciliations. Also, DLA did not
           develop policies and procedures requiring that transit subsidy applications
           be checked against the DLA headquarters parking roster. As a result,
           there is an increased risk that erroneous charges will not be detected and
           that ineligible personnel could obtain transit subsidies.


Guidance on Transit Subsidies
    The Assistant Secretary of Defense (Force Management Policy) memorandum,
    “Mass Transportation and Vanpool Transportation Fringe Benefit Program,”
    June 2, 2000, directed DoD components to begin preparing for implementation of
    Executive Order 13150, which had a deadline of October 1, 2000. The Deputy
    Secretary of Defense issued revised DoD policy, “Department of Defense
    Transportation Incentive Program,” on October 13, 2000. The guidance defines
    eligibility requirements and subsidy limitations and states that the Director, WHS
    will administer the transportation incentive program within the NCR with the
    assistance of DOT.


Program Summary
    The DoD Transportation Fringe Benefit Program allows participating employees
    to receive, in addition to their current compensation, transit subsidies in an
    amount equal to their personal commuting costs, not to exceed $100 a month.
    The benefit applies to both mass transit and qualified vanpool participants.
    Employees with subsidized parking must relinquish their parking permits in order
    to receive the transit subsidy. Similarly, employees who receive transit passes
    may not be counted as part of a DoD carpool for the purpose of obtaining a
    parking pass.

    The program requires employees within the NCR to submit their applications to
    DOT for approval. If the employee meets the criteria established by WHS, the
    application is approved and the employee information is maintained in a DOT
    database. On a quarterly basis, DOT distributes subsidies at various distribution
    points within the NCR. DOT issues vouchers to employees when they provide
    DoD identification and the last four digits of their social security number. As
    long as the employee’s name is in the DOT database, the voucher is provided.



                                         3
     On a quarterly basis, DOT provides WHS with a list of employees, by
     organization, who signed for and received benefits. WHS distributes the list to
     each organization and requests funding from that organization based on employee
     participation.

     Controls over the Transportation Fringe Benefit Program within the Army, the
     Navy, the Air Force, and DLA needed improvement to ensure that erroneous
     charges are detected and that only eligible personnel receive transit subsidies.


Reconciliation of Transit Subsidy Charges
     Army and Air Force offices with transit subsidy responsibilities were not
     performing reconciliations to validate the accuracy of DOT quarterly billings.
     Reconciliations were not being performed because policies and procedures had
     not been developed requiring the reconciliation of DOT quarterly billings.

     Army. The Office of the Administrative Assistant to the Secretary of the Army is
     responsible for providing funding to WHS based on the quarterly billings. The
     Administrative Assistant’s budget officials stated that they have never performed
     a reconciliation of the DOT quarterly billings from WHS. Once the quarterly
     billing is received, the Administrative Assistant’s budget personnel remits the
     requested WHS funding. Army personnel stated that when they receive the
     subsidy billing listing from WHS, their only recourse is to pay the bill since there
     is no policy or procedure in place for performing reconciliations.

     Navy. The Office of the Assistant for Administration to the Under Secretary of
     the Navy consistently performs detailed quarterly reconciliations of DOT
     quarterly billings. Our review of FYs 2002 and 2003 DOT quarterly billings
     showed that reconciliations were being performed on a monthly basis. Those
     reconciliations identified several discrepancies. For example, in the first quarter
     of FY 2003, the Navy identified approximately $7,158 in questionable transit
     charges. According to Navy officials, those discrepancies involved charges for
     non-Navy personnel. The Navy’s reconciliation efforts ensured the accuracy of
     DOT billing information and the identification and removal of listed employees
     that belonged to other agencies and ineligible transit subsidy recipients.

     Air Force. The Assistant Secretary of the Air Force (Financial Management and
     Comptroller) is responsible for providing funding to WHS based on quarterly
     billings. Budget officials do not perform reconciliations of DOT quarterly
     billings. Once they receive the quarterly bill from WHS, they simply provide the
     requested funding based on the quarterly DOT billing. Air Force budget officials
     recognized the need to perform reconciliations; however, they were unsure how to
     perform the reconciliations with the data provided by DOT. As a result of our
     review, Air Force officials have started a working group, along with WHS, to
     discuss the best approach to facilitate the reconciliation process.




                                          4
     Defense Logistics Agency. Although DLA did not start performing
     reconciliations until the first quarter of FY 2003, reconciliations are now
     consistently being performed. DLA reconciliations have been effective in
     identifying erroneous charges and ensuring the timely removal of listed
     employees that belong to other agencies. In addition, DLA is in the process of
     implementing other control measures to ensure that only DLA employees apply
     for and receive transit subsidies from DLA.


Subsidized Parking
     DLA was not ensuring that transit subsidy applicants relinquish subsidized
     parking permits because it had not developed policies and procedures requiring
     that subsidy applications be checked against the DLA headquarters parking
     permit roster. As a result, there was no assurance that DLA employees did not
     receive both transit and parking subsidies.

     Employees with subsidized parking must relinquish their parking permits in order
     to receive transit subsidies. All applicants are required to certify on their
     applications they are not receiving subsidized parking and will relinquish
     subsidized parking permits before or upon receipt of the transit fare benefit.

     Our review showed that DLA headquarters transit applications were not being
     checked against the DLA headquarters parking permit roster. Army, Navy and
     Air Force transit subsidy applications are checked against a central parking office
     database to determine whether a subsidized parking permit has been issued.
     Applicants identified as receiving subsidized parking are flagged and transit
     subsidies are not processed until parking permits are turned in. Since DLA
     headquarters personnel are not included in this database, DLA should verify each
     application against the DLA headquarters parking permit roster to ensure that
     personnel with DLA parking permits are not issued transit subsidies.


Transit Subsidy Policies and Procedures
     The Military Departments and DLA do not have policies and procedures
     requiring the reconciliation of DOT quarterly billings prior to payment. Army
     and Air Force officials stated that they were either unaware of procedures to
     perform such reconciliations or they were unsure how to perform reconciliations
     with the data provided by DOT. Although the Navy and DLA are performing
     reconciliations, policies and procedures should be developed to ensure the
     continued effectiveness of transit subsidy reconciliations. In addition, the
     development of policies and procedures could enable Army, Navy, Air Force, and
     DLA transit subsidy officials to develop more streamlined approaches when
     performing future reconciliations.

     DLA also lacked policies and procedures requiring verification of transit
     applications against the DLA parking permit roster. DLA was not checking
     transit subsidy applications against the DLA parking permit roster in order to


                                          5
    ensure that employees did not receive both transit and parking subsidies. At the
    time of our review, the DLA Management Control program manager had
    developed a draft policy memorandum that would require all DLA transit
    applications to be checked against the parking permit roster. Since DLA transit
    subsidy applications were not initially checked against the parking permit roster,
    the new policy would require all DLA headquarters subsidy participants to
    re-register in the transit subsidy program to ensure that all participants are
    identified and verified against the parking permit roster. However, the issuance
    of this memorandum had been delayed in order to address a union concern
    regarding the DLA policy of requiring transit subsidy participants to re-register
    and turn in parking decals. The DLA Management Control program manager
    stated that without the signed memorandum instructing personnel to return
    parking permits; a check against the parking permit roster was not possible. We
    believe the issuance of this memorandum should not preclude DLA from
    checking transit subsidy applications and current transit subsidy recipients against
    the parking permit roster to ensure that employees do not receive both transit and
    parking subsidies.


Conclusion
    The absence of controls over quarterly DOT billings decreases the possibility that
    erroneous charges will be detected in a timely manner and does not ensure that
    only eligible DoD personnel receive transit subsidies. The development of
    policies and procedures requiring the reconciliation of DOT billings will ensure
    that reconciliations are performed. In addition, policies and procedures requiring
    DLA transit officials to check transit applications against the DLA parking permit
    roster will ensure that employees are not also receiving subsidized parking.


Management Comments on the Finding and Audit Response
    Defense Logistics Agency. The Vice Director, Defense Logistics Agency
    partially concurred with the section of the report related to checking transit
    applications against the DLA parking permit roster and stated that until the
    issuance of a policy memorandum instructing personnel who receive transit
    subsidies to turn in their parking decals, such a check would be futile. Since the
    issue of subsidized parking had not been recognized before, it was not accepted
    practice at DLA to turn in decals. Therefore, participants have retained their
    decals providing them with subsidized parking.

    Audit Response. All transit subsidy applicants are required to certify on their
    applications they are not receiving subsidized parking and will relinquish
    subsidized parking permits before or upon receipt of the transit fare benefit.
    Therefore, the issuance of a DLA policy memorandum should not preclude DLA
    from ensuring compliance with DoD transit subsidy requirements.




                                         6
Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Assistant for Administration to the Under
    Secretary of the Navy; the Administrative Assistant to the Secretary of the
    Army; the Assistant Secretary of the Air Force (Financial Management and
    Comptroller); and the Director, Defense Logistics Agency develop policies
    and procedures requiring the reconciliation of all transit subsidy billings
    received from the Department of Transportation.

    Army Comments. The Administrative Assistant to the Secretary of the Army
    concurred with the recommendation and is working with WHS to develop a
    process to conduct reconciliations. In addition, the Army is drafting policy and
    procedures requiring the reconciliation of all transit subsidy billings and has
    identified transit subsidies as an assessable unit. The estimated completion date
    for these actions is March 30, 2004.

    Navy Comments. The Assistant for Administration to the Under Secretary of the
    Navy concurred with the recommendation by stating that the Navy has
    documented the transit subsidy reconciliation process in desk guides and is
    including transit subsidies as an assessable unit in their management control plan.
    However, the Assistant for Administration indicated that the report did not
    emphasize the Navy’s success in its execution of internal controls in the transit
    subsidy program and its subsequent efforts to address the concerns of the
    auditors.

    Audit Response. We commend the Navy’s prompt documentation of the transit
    subsidy reconciliation process. The Navy’s efforts to document the process will
    help to ensure the continued effectiveness of its transit subsidy reconciliations.

    Air Force Comments. The Air Force Deputy Assistant Secretary (Budget)
    concurred with the recommendation to develop policies and procedures requiring
    the reconciliation of transit subsidy billings.

    Defense Logistics Agency Comments. The Vice Director, Defense Logistics
    Agency concurred with the recommendations and stated that policies and
    procedures will be developed and posted on the DLA Support Services Web page
    by December 1, 2003.

    Washington Headquarters Services. Although not required to comment, the
    Deputy Director, Washington Headquarters Services stated that as a result of our
    report, WHS has issued supplemental budget guidance to all DoD Components
    clarifying that each component is responsible for verifying monthly participation
    reports and paying periodic bills. In addition, WHS is working with the DoD
    Components to facilitate report reconciliation. Also, WHS is researching the use
    of the DoD Common Access Card as identification for the distribution of transit
    subsidy benefits to increase the accuracy of employee organization information
    and to reduce the risk of ineligible persons receiving transit benefits.




                                         7
2. We recommend that the Director, Defense Logistics Agency develop a
policy requiring that all transit subsidy applications be checked against the
Defense Logistics Agency parking permit roster before being approved.

Defense Logistics Agency Comments. The Vice Director, Defense Logistics
Agency concurred with the recommendation and stated that it will issue a
memorandum requiring that applications be checked against the DLA parking
permit roster once a Master Labor agreement is ratified. The expected completion
date is December 1, 2003.




                                   8
Appendix A. Scope and Methodology
    We performed this audit from March through July 2003 in accordance with
    generally accepted government auditing standards. We performed audit work to
    examine allegations made to the Defense Hotline. We reviewed applicable
    policies, procedures, processes, and guidance regarding the DoD transit subsidy
    program within the NCR. Our review was limited to headquarters-level transit
    subsidy offices at the Army, the Navy, the Air Force, and DLA. We discussed the
    allegations with the complainant. We also met with personnel from the Assistant
    Secretary of the Army (Office of the Administrative Assistant); the Assistant for
    Administration to the Under Secretary of the Navy; the Assistant Secretary of the
    Air Force; (Financial Management and Comptroller); DLA; WHS; and DOT.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Financial Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls over transit subsidies at the Army, the Navy,
    the Air Force, and DLA. We also reviewed the adequacy of management’s self-
    evaluation of those management controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses at the Army, the Navy, the Air Force, and DLA as defined by
    DoD Instruction 5010.40. The Army, the Navy, the Air Force, and DLA did not
    have adequate procedures in place to ensure the accuracy of DOT quarterly
    billings. In addition, DLA did not have adequate controls in place to ensure that
    personnel with DLA parking permits were not issued transit subsidies. The
    recommendations in this report, if implemented, will improve controls over transit
    subsidies at the Army, the Navy, the Air Force, and DLA.

    Adequacy of Management’s Self Evaluation. The Army, the Navy, the Air
    Force, and DLA did not identify transit subsidies as an assessable unit, and,
    therefore, did not identify or report the material control weaknesses identified by
    this audit. However, in responding to this report, DLA stated that Mass Transit
    has been included as a core objective in their FY 2004 Management Control Plan.



                                         9
Prior Coverage
    No prior coverage has been conducted on transit subsidies during the last 5 years.




                                        10
Appendix B. Review of Allegations
   Allegation 1. Billing information received from DOT was incomplete and did
   not include sufficient details to facilitate the reconciliation of quarterly DOT
   billings. Once sufficient details were provided, reconcilations revealed
   names of personnel that were not employed by that DoD agency, including a
   contractor. In addition, WHS would not credit the agency for discrepancies
   identified in the reconciliation process.

   Partially substantiated. Although the complainant’s reconciliations identified
   names of employees that did not belong to that agency, the complainant could not
   provide any documentation to show that the identified personnel were contractors.
   Since the transit subsidy program inception in October 2000, DOT has provided
   WHS with quarterly reports for each DoD agency that contained the names of
   employees receiving transit benefits and the amount of benefits received. WHS
   distributes the listings to each Service and agency and requests funding based on
   the total quarterly distribution amount. According to WHS officials, it is each
   agency’s responsibility to review the list of employees it is being charged for. If
   an agency identifies an employee who is not on its roster, it must contact DOT so
   that the employee can be removed from its list for future billings. An agency will
   continue to be charged for all employees until it has notified DOT of an error.
   From that point forward, the agency will not be charged for that employee. The
   complainant’s agency did not start performing reconciliation’s until the first
   quarter of FY 2003. Reconciliations of previous quarterly billings identified
   numerous individuals who did not belong to the agency. Had timely
   reconciliations been performed, those individuals would have been removed from
   the DOT quarterly billings. According to WHS officials, WHS has never been
   resourced for the management of the program and does not have the staff to deal
   with retroactively giving credits to agencies.

   Allegation 2. Controls have not been established to ensure that employees do
   not receive transit subsidies while receiving subsidized parking.

   Partially substantiated. Employees with subsidized parking are required to
   relinquish their parking permits in order to receive transit subsidies. All
   applicants are required to certify on their applications that they are not receiving
   subsidized parking and that they will relinquish subsidized parking permits before
   or upon receipt of the fare benefit. DLA headquarters transit applications were
   not being checked against the DLA headquarters parking permit roster. The
   Army, the Navy, and the Air Force transit subsidy applications are checked
   against a central parking permit database to determine if a subsidized parking
   permit has been issued, and if so, the application is flagged and transit subsidies
   are not processed until parking permit is turned in. Since DLA headquarters
   personnel are not included in this database, DLA should verify each application
   against the DLA headquarters parking permit roster to ensure that personnel
   holding DLA parking permits do not receive transit subsidies as well.




                                        11
Allegation 3. There is no requirement for transit subsidy applications to be
signed by a point of contact at the parent organization to validate an
applicants’ employer.

Substantiated. The program requires employees within the NCR to submit their
application to the DOT for approval. If the employee meets the criteria
established by WHS, the application is approved and employee information is
maintained in a DOT database. There is no requirement for the form to be signed
by a point of contact at the employee’s parent organization, nor is there any
verification by DOT to validate the applicant’s employer. DOT issues transit
subsidies to employees on a quarterly basis when they provide DoD identification
and the last four digits of their social security number. If ineligible individuals
obtain transit subsidies, reconciliation of the DOT quarterly billing would identify
those individuals.

Allegation 4. Because of inadequate controls, employees may receive
vouchers and then give them to family members, sell the fare cards, or collect
reimbursements and continue to drive to work and park in subsidized
parking.

Substantiated. The transit subsidy program relies on the integrity of employees
concerning the amount of their commuting costs and proper use of the subsidy.
All potential participants are required to agree to the following statement:

       I certify that I am eligible for a public transportation fare benefit,
       will use it for my daily commute to and from work, and will not
       transfer it to anyone else.

During our review, we were notified that a DoD employee was auctioning transit
vouchers on the Internet. We referred the case to the Deputy Inspector General
for Investigations, DoD for further review. Although there is some risk that
individuals could sell, give away, or transfer their transit subsidy, we believe that
implementing controls to prevent that type of misuse would not be cost-effective.




                                            12
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Administrative Assistant to the Secretary of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant for Administration to the Under Secretary of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency
Director, Washington Headquarters Services

Non-Defense Federal Organizations
Office of Management and Budget




                                          13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        14
Department of the Army Comments




                    15
16
               Department of the Navy Comments
Final Report
 Reference




Revised




                                   17
Department of the Air Force Comments




                     18
Defense Logistics Agency Comments




                     19
20
21
22
Washington Headquarters Services’ Comments




                    23
24
                                                                     Final Report
                                                                      Reference




                                                                     *




                                                                     *




* Omitted because of length. Copies will be provided upon request.

                                                               25
Team Members
The Readiness and Logistics Support Directorate, Office of the Deputy Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Kimberley A. Caprio
Dennis E. Payne
Marc E. Avers
Brantley Thomas
Beth N. Sakshaug
Susann L. Cobb
